App. 1
IN THE SUPREME COURT OF
THE STATE OF DELAWARE
JAMES L. MARTIN,
Plaintiff Below,
Appellant,
v.

§
§
§
§
§
§

No. 401, 2018
Court Below—
Superior Court of the
State of Delaware

NATIONAL GENERAL
ASSURANCE COMPANY, § C.A. No. N18C-01-107
Defendant Below,
Appellee.

§
§

Submitted: March 22, 2019
Decided: June 5, 2019
Before VAUGHN, SEITZ, and TRAYNOR, Justices.
ORDER
After consideration of the parties’ briefs and the
record below,1 it appears to the Court that:
(1) The plaintiff below-appellant, James L. Mar­
tin, filed this appeal from a Superior Court order
granting the motion to dismiss filed by the defendantbelow National General Assurance Company. We con­
clude that the judgment of the Superior Court should
be affirmed.

1 We do not consider the documents that were included in the
appellee’s appendix and that the appellant moved to strike be­
cause they were not part of the record below.

App. 2
(2) On October 10, 2015, Martin was injured in
a collision with a car while riding his bicycle.2 Martin’s
insurance policy with National General included
$15,000 for personal injury protection (“PIP”), $5,000
for loss of property under PIP, and $15,000 for bodily
injury under the uninsured/underinsured (“UM/UIM)
provision, with $10,000 for property damage. The
driver’s insurance policy with State Farm included
$15,000 for PIP. Martin received $15,000 in PIP bene­
fits from the driver’s State Farm policy. Martin alleged
that his losses, including medical and surgical ex­
penses and lost income, from the accident exceed the
PIP and UIM limits.
(3) Martin demanded PIP and UIM coverage un­
der his policy with National General. National General
denied PIP coverage, informing Martin that State
Farm was exclusively liable. National General also de­
nied UIM coverage, initially informing Martin that the
$15,000 policy limit did not exceed the State Farm pol­
icy limit. National General subsequently informed
Martin that his bicycle did not fall under the definition
of a covered auto under the policy. Finally, National
General informed Martin that he was not entitled to
UIM coverage because the State Farm policy limit was
not exhausted.
(4) At an arbitration before a Delaware Depart­
ment of Insurance Arbitration Panel, the arbitrator
2 The facts stated in this order are drawn from the allega­
tions of the complaint and are assumed to be true only for pur­
poses of this appeal from a motion to dismiss. Malpiede v.
Townson, 780 A.2d 1075, 1082 (Del. 2001).

App. 3
found that Martin could not recover PIP benefits under
the National General policy because the policy pre­
cluded stacking of PIP policies. The arbitrator found
that the UIM claim was outside of his authority. The
arbitrator entered a decision in favor of National Gen­
eral.
(5) On January 11, 2018, Martin filed a com­
plaint in the Superior Court for PIP and UIM coverage
under the National General policy. He also alleged that
he was entitled to exemplary damages based on Na­
tional General’s bad faith denial of UIM benefits based
on an out-of-date version of 10 Del. C. § 3902(b)(2), fail­
ure to investigate the cause of the accident, and failure
to pay the policy limit. National General filed a motion
to dismiss the complaint for failure to state a claim un­
der Superior Court Civil Rule 12(b)(6). National Gen­
eral argued that a policy exclusion precluded the
double recovery of PIP benefits. As to the UIM claim,
National General argued that Martin had not shown
that all of the policies available to him at the time of
the accident were exhausted as required by 18 Del. C.
§ 3902(b)(3). Martin opposed the motion and submit­
ted portions of the policy that he claimed entitled him
to PIP coverage. After oral argument, the Superior
Court granted National General’s motion to dismiss.
This appeal followed.
(6) We review a trial court’s granting of a motion
to dismiss de novo} On appeal, Martin argues that:
3 Cent. Mortg. Co. v. Morgan Stanley Mortg. Capital Hold­
ings LLC, 27 A.3d 531, 535 (Del. 2011).

App. 4
(i) National General was required to file the entire in­
surance policy with its motion to dismiss; (ii) under the
doctrine of contra proferentem, the policy allowed the
recovery of PIP benefits under the State Farm and Na­
tional General policies; and (iii) National General was
subject to a bad faith claim based on its wrongful de­
nial of his UIM claim. Martin did not raise his first ar­
gument in the Superior Court so we will not consider
that argument for the first time on.appeal.4
(7) Turning to Martin’s next argument, the doc­
trine of contra proferentem requires ambiguous lan­
guage in an insurance policy to be construed against
the insurance company.5 The National General policy
endorsement excluded PIP coverage for injuries sus­
tained by the named insured or any family member
while a pedestrian injured by an accident with any mo­
tor vehicle other than the covered auto with respect to
which the insurance required by the Delaware Motor­
ist Protection Act is in effect. In Gonzalez v. State Farm
Mut. Auto. Ins. Co.,6 this Court found that virtually
identical language was unambiguous and precluded a
mother from collecting the $15,000 PIP policy limit
from her insurance carrier after her son was hit by a
car while riding his bicycle and the driver’s insurance
company paid the $15,000 PIP policy limit. In light of
4 Supr. Ct. R. 8. At oral argument, the Superior Court con­
sidered the portions of the insurance policy submitted by National
General and by Martin.
Penn Mut. Life Ins. Co. v. Oglesby, 695 A.2d 1146, 1149-50
(Del. 1997).
6 1996 WL 526014 (Del. Aug. 1996).

App. 5
the unambiguous policy language, the doctrine of con­
tra preferentem is not applicable here. The plain lan­
guage of the National General policy precluded Martin
from recovering the $15,000 PIP policy limit under
both the State Farm policy and the National General
policy. He therefore failed to state a claim for PIP ben­
efits under the National General policy.
(8) Finally, Martin failed to state a claim for UIM
benefits or bad faith. Under 18 Del. C. § 3902(b)(3), Na­
tional General was not obligated [sic] pay any UIM ben­
efits “until after the limits of liability under all bodily
injury bonds and insurance policies available to the in­
sured at the time of the accident have been exhausted
by payment of settlement or judgments.” Martin did not
allege and does not claim that all limits of liability under
all bodily injury bonds and insurance policies available
(specifically the driver’s State Farm policy) have been
exhausted. Even though National General initially de­
nied UIM coverage based on an out-of-date version of
§ 3902(b)(2),7 National General subsequently denied
7 This section previously allowed an injured claimant to re­
cover UIM benefits from their insurance company when their
UIM coverage limits exceeded the tortfeasor’s bodily injury liabil­
ity coverage limit. 18 Del. C. § 3902(b)(3) (1995) (“An underin­
sured motor vehicle is one for which there may be bodily injury
liability coverage in effect, but the limits of bodily injury liability
coverage under all bonds and insurance policies applicable at the
time of the accident total less than the limits provided by the un­
insured motorist coverage.”). In 2013, this section was amended
to provide that a claimant could recover UIM benefits when their
damages exceeded the tortfeasor’s bodily injury coverage limit. 18
Del. C. § 3902(b)(3) (2013) (“An underinsured motor vehicle is one
for which there may be bodily injury liability coverage in effect,

App. 6
coverage based on the unexhausted State Farm policy,
which Martin does not dispute. After careful consider­
ation of the parties’ arguments, we conclude that the
Superior Court did not err in dismissing the Martin’s
complaint.
NOW, THEREFORE, IT IS ORDERED that the
judgment of the Superior Court is AFFIRMED.
BY THE COURT:
Isl Collins J. Seitz. Jr.
Justice

but the limits of bodily injury liability coverage under all bonds
and insurance policies applicable at the time of the accident are
less than the damages sustained by the insured.”). The amend­
ment applied to policies issued or renewed after January 3, 2014.

App. 7
This document constitutes a ruling of the court and
should be treated as such.
Court: DE Superior CourtNew Castle County
Judge: Charles E Butler
File & Serve
Transaction ID: 61756226
Current Date: Jul 02, 2018
Case Number: N18C-01-107 CEB
Case Name: JAMES L MARTIN, PLAINTIFF
V. NATIONAL GENERAL
ASSURANCE COMPANY,
DEFENDANT
Court Authorizer
Comments:

SO ORDERED BY BUTLER, J. FROM THE BENCH
ON JUNE 27, 2018
Complaint DISMISSED for failure to state a claim
Is/ Judge Butler, Charles E

App. 8
IN THE SUPREME COURT OF
THE STATE OF DELAWARE
JAMES L. MARTIN,
Plaintiff Below,
Appellant,
v.

§

§
§
§
§

No. 401, 2018
Court Below—
Superior Court of the
State of Delaware

NATIONAL GENERAL
§
ASSURANCE COMPANY, § C.A. No. N18C-01-107
Defendant Below,
Appellee.

§
§

Submitted: June 20, 2019
Decided: June 25, 2019
Before STRINE, Chief Justice; VALIHURA, VAUGHN,
SEITZ, and TRAYNOR, Justices, constituting the
Court en Banc.
ORDER
This 25th day of June, 2019, the Court has care­
fully considered the motion for rehearing en Banc filed
by appellant and it appears that the motion for rehear­
ing en Banc is without merit and should be denied.
NOW, THEREFORE, IT IS ORDERED that the
motion for rehearing en Banc is DENIED.
BY THE COURT:
Isl Collins J. Seitz. Jr.
Justice

